<html>
<title> - LOST OPPORTUNITIES? SBA'S ENGAGEMENT WITH HISTORICALLY BLACK COLLEGES AND UNIVERSITIES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


 LOST OPPORTUNITIES? SBA'S ENGAGEMENT WITH HISTORICALLY BLACK COLLEGES 
                                  AND 
                              UNIVERSITIES

=======================================================================

                                HEARING

                               BEFORE THE

       SUBCOMMITTEE ON INVESTIGATIONS, OVERSIGHT, AND REGULATIONS

                                 OF THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                             APRIL 30, 2019

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                               
                               

            Small Business Committee Document Number 116-016
             Available via the GPO Website: www.govinfo.gov
             
             
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-131 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="81f1eec1e2f4f2f5e9e4edf1afe2eeecaf">[email&#160;protected]</a>                    
             
             
             
                   
                   
                   
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                         ABBY FINKENAUER, Iowa
                          JARED GOLDEN, Maine
                          ANDY KIM, New Jersey
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                          JUDY CHU, California
                           MARC VEASEY, Texas
                       DWIGHT EVANS, Pennsylvania
                        BRAD SCHNEIDER, Illinois
                      ADRIANO ESPAILLAT, New York
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                         ANGIE CRAIG, Minnesota
                   STEVE CHABOT, Ohio, Ranking Member
   AUMUA AMATA COLEMAN RADEWAGEN, American Samoa, Vice Ranking Member
                        TRENT KELLY, Mississippi
                          TROY BALDERSON, Ohio
                          KEVIN HERN, Oklahoma
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        TIM BURCHETT, Tennessee
                          ROSS SPANO, Florida
                        JOHN JOYCE, Pennsylvania

                Adam Minehardt, Majority Staff Director
     Melissa Jung, Majority Deputy Staff Director and Chief Counsel
                   Kevin Fitzpatrick, Staff Director
                            
                            
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Judy Chu....................................................     1
Hon. Ross Spano..................................................     3

                               WITNESSES

Ms. Anna Maria Ortiz, Acting Director, Financial Markets and 
  Community Investment, Government Accountability Office, 
  Washington, DC.................................................     4
Mr. Allen Gutierrez, Associate Administrator, Office of 
  Entrepreneurial Development, Small Business Administration, 
  Washington, DC.................................................     6
Dr. Paulette Dillard, President, Shaw University, Raleigh, NC....    19
Dr. Barron H. Harvey, Dean of the School of Business, Howard 
  University, Washington, DC.....................................    20
Dr. Michael H. Casson, Jr., Dean of the School of Business, 
  Delaware State University, Dover, DE...........................    21
Dr. Roslyn Clark Artis, President and CEO, Benedict College, 
  Columbia, SC...................................................    23

                                APPENDIX

Prepared Statements:
    Ms. Anna Maria Ortiz, Acting Director, Financial Markets and 
      Community Investment, Government Accountability Office, 
      Washington, DC.............................................    32
    Mr. Allen Gutierrez, Associate Administrator, Office of 
      Entrepreneurial Development, Small Business Administration, 
      Washington, DC.............................................    51
    Dr. Paulette Dillard, President, Shaw University, Raleigh, NC    54
    Dr. Barron H. Harvey, Dean of the School of Business, Howard 
      University, Washington, DC.................................    77
    Dr. Michael H. Casson, Jr., Dean of the School of Business, 
      Delaware State University, Dover, DE.......................    84
    Dr. Roslyn Clark Artis, President and CEO, Benedict College, 
      Columbia, SC...............................................    88
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    None.

 
 LOST OPPORTUNITIES? SBA'S ENGAGEMENT WITH HISTORICALLY BLACK COLLEGES 
                            AND UNIVERSITIES

                              ----------                              


                        TUESDAY, APRIL 30, 2019

                  House of Representatives,
               Committee on Small Business,
    Subcommittee on Investigations, Oversight, and 
                                       Regulations,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:02 a.m., in 
Room 2360, Rayburn House Office Building, Hon. Judy Chu 
[chairwoman of the Subcommittee] presiding.
    Present: Representatives Chu, Evans, Houlahan, Spano, and 
Burchett.
    Also Present: Representative Adams.
    Chairwoman CHU. Good morning. The Subcommittee will come to 
order. And I would like to thank everybody for joining us here 
this morning. And I would like to especially thank our 
witnesses.
    Let me also welcome Representative Alma Adams, who will be 
joining us here today. Representative Adams served on the Small 
Business Committee in the last Congress and has been a 
formidable voice in Congress for historically black colleges 
and universities, or HBCUs. She founded the bipartisan HBCU 
Caucus, and her leadership on this important issue is 
commendable. And, in fact, it is she who pushed for this 
hearing to happen, and I thank her for that.
    Welcome back.
    Ms. ADAMS. It is good to be here.
    Chairwoman CHU. Well, the purpose of today's hearing is to 
examine whether HBCUs are receiving adequate support from the 
Small Business Administration to help foster entrepreneurship.
    Over 150 years ago, the first HBCUs were born out of 
adversity to ensure African-Americans had an opportunity to 
attend college. Today, there are more than 100 historic 
institutions across the country, serving nearly 300,000 
students, many of whom are low-income and the first in their 
family to attend college.
    HBCUs' contributions to our country are extraordinary, 
producing over 50 percent of African-American professionals. 
Many of our Nation's leaders in government, business, and 
academia graduated from HBCUs, including Supreme Court Justice 
Thurgood Marshall, Oprah Winfrey, and Langston Hughes, just to 
name a few.
    HBCUs are so deeply rooted in their local communities, 
partnering with schools and community organizations to improve 
the quality of education for disadvantaged minority students 
and fostering entrepreneurship.
    The positive economic impact HBCUs have provided to our 
Nation also cannot be understated. Data provided by the 
National Center for Education Statistics reveals that graduates 
are responsible for 24 percent of the degrees earned by 
African-Americans in STEM and generate $14.8 billion in 
economic activity, creating nearly 135,000 jobs.
    Recognizing the importance of HBCUs, President Jimmy Carter 
signed the first Executive order to establish a White House 
initiative to overcome the effects of discriminatory treatment 
and to strengthen the capacity of HBCUs to provide a quality 
education. Every administration since then has issued a similar 
Executive order continuing support for HBCUs.
    Most recently, President Trump signed Executive Order 
13779, which set two goals: first, to increase the private-
sector role in strengthening HBCUs; and, secondly, to enhance 
the HBCUs' capabilities for helping young adults. As part of 
that initiative, the SBA is required to develop an annual plan 
detailing its efforts to support HBCU participation in its 
entrepreneurship programs.
    At the request of Representative Adams and 19 Members of 
Congress, the Government Accountability Office examined SBA's 
entrepreneurship efforts with HBCUs. The GAO recently released 
its preliminary findings, which found SBA entrepreneurship 
activities and programs do not specifically target HBCUs but 
some collaboration does exist.
    The GAO report found only two HBCUs host lead SBDCs, while 
there are 16 HBCUs with SBDC service centers on campus. They 
also concluded that, over a decade, SBA signed just 24 
strategic alliance memorandums with HBCUs to support minority-
owned businesses and that SBA cosponsored 6 counseling and 
training activities with HBCUs over a 5-year period.
    Clearly, more needs to be done to strengthen the 
collaboration between SBA and the HBCUs, and that is why we are 
holding this hearing today.
    HBCUs offer tremendous opportunities to foster 
entrepreneurship and drive economic growth, particularly in 
underserved communities. As many of us in this room already 
know, small-business owners in underserved communities face a 
number of challenges, which include access to affordable 
capital from traditional lenders, securing Federal contracting 
opportunities, and a lack of a business network and mentoring. 
During recent testimony before our Committee, Ms. Sharon Pinder 
testified that the loan denial rate is three times higher for 
people of color than non-minority firms and, if approved, 
minorities often have higher interest rates.
    As the Chairwoman of the Subcommittee on Investigations, 
Oversight, and Regulations, I am committed to working with SBA 
and its entrepreneurial development ecosystem to help minority 
entrepreneurs overcome these challenges and develop a clear 
path to small-business ownership.
    This ecosystem has the ability to reach entrepreneurs to 
make them aware of programs like the Community Advantage Pilot 
Program, which is specifically designed to increase SBA-
guaranteed loans to small businesses in underserved areas. We 
know that small-dollar loans greatly benefit emerging markets 
and startups, but these programs can't fully succeed if the SBA 
is not allocating resources to increase awareness and 
participation.
    It is my hope that the first panel will provide members 
with a better understanding of SBA's current activities to 
promote collaboration with HBCUs and also identify ways to 
strengthen that collaboration.
    I also look forward to the second panel, where we will hear 
from the leaders of four HBCUs. It is important to hear their 
perspectives on SBA's level of engagement with their faculty, 
students, and communities. Because, in the end, this is about 
supporting entrepreneurs, small business, and job growth in all 
of our communities.
    And, with that, I yield to Ranking Member Spano for his 
opening statement.
    Mr. SPANO. Thank you, Madam Chair. Good morning.
    Good morning to everyone.
    As a third-generation small-business owner myself, I am 
very familiar with the reciprocal relationship between 
entrepreneurs and their surrounding communities. Communities 
offer vital resources and support for entrepreneurs and small 
businesses, and, in return, those small businesses spark 
economic development and job growth.
    Educational institutions are the bedrock of their local 
communities and a launch pad for leaders of the next 
generation. Our Nation's 101 historically black colleges and 
universities, or HBCUs, serve students and communities across 
many cultural and socioeconomic backgrounds.
    The Small Businesses Administration, or SBA, offers a 
variety of programs that provide resources to socially and 
economically disadvantaged individuals. Business assistance 
services are provided through a nationwide network of field 
offices and nonprofit resource providers which are often 
located on or near college campuses. Given their complementary 
missions, collaboration between the SBA and HBCUs has enormous 
potential.
    Recognizing this, last year, Congresswoman Alma Adams and 
former Congressman Dave Brat wrote a letter to the Government 
Accountability Office, or GAO, requesting a review of SBA's 
outreach to HBCUs. And we are here today to receive the GAO 
report generated by last year's request and discuss its 
findings with the author of the report and the SBA official 
responsible for entrepreneurial efforts with HBCUs.
    We also have the privilege to hear from HBCU officials that 
have partnered with SBA to provide entrepreneurial assistance.
    To quote the request letter, we want to ensure that SBA is 
leveraging HBCUs in the most effective way.
    I would like to thank the witnesses on both panels this 
morning for joining us today.
    And I yield back, Chair.
    Chairwoman CHU. Thank you, Mr. Spano.
    The gentleman yields back.
    And if Subcommittee members have an opening statement 
prepared, we would ask that they be submitted for the record.
    I would like to take just a minute to explain the timing 
rules. Each witness gets 5 minutes to testify, and the members 
get 5 minutes for questioning.
    There is a lighting system to assist you. The green light 
will be on when you begin, and the yellow light begins when you 
have 1 minute remaining. The red light comes on when you are 
out of time. And we ask that you stay within that timeframe to 
the best of your ability.
    I would like to introduce our witnesses on our first panel.
    Our first witness is Ms. Anna Maria Ortiz, the Acting 
Director of Financial Markets and Community Investment at the 
Government Accountability Office. In that position, she 
oversees audits related to consumer financial protection, 
insurance, banking, housing, and financial services.
    Ms. Ortiz graduated from Princeton with a degree in 
political economy and received her Ph.D. and Master of Arts in 
political science from the University of Michigan.
    Welcome, Ms. Ortiz.
    Our second witness on the first panel today is Mr. Allen 
Gutierrez, the Associate Administrator of the Office of 
Entrepreneurial Development at the Small Business 
Administration.
    Prior to joining the SBA, he served as the national 
executive director of The Latino Coalition, where it grew to 
include 1.2 million Hispanic business owners and over 90 
coalition partners. Before his time at The Latino Coalition, 
Mr. Gutierrez served as a senior advisor to the COO at the SBA 
from 2001 to 2006.
    He earned his Bachelor of Arts in political science with a 
minor in business administration from the University of 
Southern California.
    Welcome, Mr. Gutierrez.
    And so, Ms. Ortiz, you are now recognized for 5 minutes.

 STATEMENTS OF ANNA MARIA ORTIZ, ACTING DIRECTOR OF FINANCIAL 
  MARKETS AND COMMUNITY INVESTMENT, GOVERNMENT ACCOUNTABILITY 
   OFFICE, WASHINGTON, D.C.; AND ALLEN GUTIERREZ, ASSOCIATE 
  ADMINISTRATOR, OFFICE OF ENTREPRENEURIAL DEVELOPMENT, SMALL 
           BUSINESS ADMINISTRATION, WASHINGTON, D.C.

                 STATEMENT OF ANNA MARIA ORTIZ

    Ms. ORTIZ. Thank you, Madam Chairwoman.
    Chairwoman Chu, Ranking Member Spano, thank you for having 
me here today.
    Historically black colleges and universities, HBCUs, play a 
critical role in supporting underserved students and 
communities. Among the African-Americans with advanced degrees 
in science, technology, math, and engineering, fully one-third 
earned their undergraduate degrees at HBCUs.
    Meanwhile, among the major priorities of the Small Business 
Administration is to help Americans start, build, and grow 
businesses--that is, to become effective entrepreneurs.
    Under the White House Initiative on Historically Black 
Colleges and Universities, SBA and other Federal agencies are 
tasked with enhancing HBCUs' capacity to compete for and 
participate in Federal programs and initiatives.
    My testimony today concerns both SBA's work to promote 
entrepreneurship at HBCUs and preliminary observations on SBA's 
implementation of its goals under the White House initiative.
    At heart, GAO's research suggests that SBA's uneven 
administration and record-keeping of its obligations underneath 
the White House initiative may result in it missing 
opportunities to capitalize on the unique role of the HBCUs in 
the American educational system.
    GAO found that, although SBA's entrepreneurship programs 
and activities do not directly target HBCUs, some collaboration 
exists. Done well, these partnerships show the potential for 
SBA and HBCU collaboration to generate economic growth.
    For example, the Small Business Development Center at one 
HBCU, the University of the Virgin Islands, counsels students 
in a competition to promote startup businesses. A graduate of 
the university told us how the training and counseling he 
received during the competition was critical in launching his 
customized event planning company.
    Despite anecdotal examples of collaboration, SBA has 
provided GAO limited information on its activities with HBCUs. 
While SBA offices occasionally partner with HBCUs to offer 
workshops and training, several district offices report that 
they have no systematic approach to collecting data on their 
outreach activities.
    SBA officials told us that, while they track cosponsored 
activities, their systems are not set up in a way to allow them 
to identify specific institutions with which they partner, such 
as HBCUs. These information gaps are significant because SBA 
needs reliable data on its activities to gauge progress towards 
the agency's stated goals.
    Further, GAO has observed that SBA's administration of and 
record-keeping for the White House initiative has not been 
fully transparent. For example, the agency was inconsistent in 
responding to GAO questions about which SBA office had 
responsibility for leading the initiative, provided incomplete 
information on some of its activities, and was not able to 
provide evidence for 7 of 10 agency plans it was required to 
prepare for the initiative between 2008 and 2018. Without a 
cohesive leadership and oversight strategy, SBA cannot ensure 
that its program and district offices are taking appropriate 
steps to implement its agency's plans.
    In its 2017 issuance of an Executive Order continuing the 
White House Initiative on HBCUs, the current administration has 
declared its commitment to ensuring that Federal agencies 
enhance the capacity of HBCUs and advance America's full human 
potential. Imagine the effects on the small-business ecosystem 
if technologically minded HBCU graduates were to channel their 
energy into entrepreneurship.
    Effectively administering its obligations under the White 
House Initiative would enable SBA to leverage HBCUs' unique and 
critical role in the higher education system to spark business 
innovation, promote entrepreneurship, and increase economic 
vitality in communities throughout the United States.
    This concludes my oral statement. I welcome any questions 
you may have.
    Chairwoman CHU. Thank you, Ms. Ortiz.
    And now, Mr. Gutierrez.

                  STATEMENT OF ALLEN GUTIERREZ

    Mr. GUTIERREZ. Thank you very much, Chairman Chu, Ranking 
Member Spano, and members of the Subcommittee, for inviting me 
to speak with you today.
    In 2018, SBA Administrator McMahon asked that I take a lead 
role in coordinating the agency's work with the President's 
Executive order on HBCUs. Since then, our office has 
responsibility for preparing an annual plan, coordinating 
activities within SBA, attending interagency meetings related 
to broader Federal agency HBCU outreach, the most recent of 
which I attended just last week.
    Prior to this assignment, I did not have much context to 
the agency's working response to similar previous Executive 
orders or even the agency's history of partnerships with HBCUs 
through our district offices. In this sense, the GAO review was 
helpful in defining where the agency can be better coordinated 
in our activities and better capture data in our engagement 
going forward.
    SBA's district offices have a long history of interaction 
with HBCUs. Many of those examples I shared in my written 
testimony, and they include universities that we will hear from 
in the second panel. The agency has had strategic alliances 
with universities in Florida and Mississippi, to name a few. 
And five HBCU universities in North Carolina are part of our 
Resource Partner Network and host technology development 
centers.
    Many of our alliances and partnerships are coordinated 
through the different program offices at SBA. Our Office of 
Field Operations, OFO, oversees 68 district offices and close 
to 700 staff members. OFO leadership and district directors 
work with HBCUs in their areas, like Howard University, which 
also serves as an example where there is a crossover into my 
program office.
    My Office of Entrepreneurial Development oversees a network 
of programs and services that support small businesses. This 
networks includes what we commonly refer to as resource 
partners--among them, small business development centers, 
SBDCs. SBDCs are university-based grantees that match Federal 
funding from SBA with State and private funding to provide 
counseling and training to small-business entrepreneurs. Howard 
University serves as an SBDC lead center in the Washington 
metropolitan area.
    Over the last 2 years, Administrator McMahon traveled to 
all 68 district offices with the purpose of seeing firsthand 
how our programs and services are better delivered at a local 
level and to better align SBA headquarters with our district 
offices. The result of these efforts will include more 
integrated customer service activities, including those 
involving engagement with HBCUs.
    Building on that, the GAO review has led to a positive 
internal discussion on how we can strengthen the initiatives 
going forward across program offices. Among our goals will be 
to break down any existing silos within HBCU engagements, 
foster greater coordination with our Office of Field 
Operations, and ensure consistency in data collection.
    Madam Chair, while the agency has a good record of 
partnership with HBCUs, the agency's past work with respect to 
the Executive orders has been inconsistent, and internal 
ownership of the initiatives has changed from office to office. 
In the future, I will take responsibility for making sure our 
agency is better coordinated across all our program offices and 
better in capturing and reporting on our activity.
    Thank you again for the opportunity to testify. I look 
forward to continuing to work with you and Committee members on 
this and other areas of mutual interest. Thank you.
    Chairwoman CHU. Thank you.
    Well, I would begin by recognizing myself for 5 minutes for 
questioning.
    Ms. Ortiz, during the investigation, did you consult with 
SBA's regional offices, and were they familiar with the White 
House initiative to promote excellence and innovation at 
historically black colleges and universities?
    Ms. ORTIZ. We spoke specifically with eight of SBA's 
district offices, which the agency calls their boots on the 
ground when it comes to delivering services and collaborating 
with local institutions.
    Of those eight offices, two told us they were not familiar 
with the White House initiative, and six said they could not 
comment on whether they were familiar with the initiative 
because it was a headquarters initiative.
    Chairwoman CHU. In your view, to what extent is outreach to 
HBCUs a priority for the SBA?
    Ms. ORTIZ. GAO's preliminary research suggests that 
outreach to HBCUs has not been a particular priority.
    There are some cases--for example, when SBA partners with 
resource partners and HBCUs in their Small Business Development 
Centers, both the lead centers at Howard and the University of 
the Virgin Islands and a sub-center at Alabama State--where we 
see very effective collaboration. We also heard stories of 
anecdotal collaboration with district offices and local HBCUs.
    However, the lack of centralized information on district 
offices' activities with HBCUs and the lack of a cohesive 
leadership strategy at SBA has really hindered, I think, its 
progress towards fully leveraging HBCUs.
    Chairwoman CHU. How well is SBA measuring its progress in 
achieving its goals and priorities related to the White House 
Initiative on HBCUs, which is an initiative that has been 
around since the 1980s?
    Ms. ORTIZ. GAO found that SBA had fairly limited data on 
its activities with HBCUs. It records strategic alliance 
memoranda, of which we identified 27 schools with which SBA and 
HBCUs had partnered. It also records some cosponsored 
activities. But, in general, specific activities that are going 
on at the district offices need not be reported back up to 
headquarters. So SBA doesn't have a good feel for what is going 
on at the local level in terms of these partnerships and 
collaborations with HBCUs.
    Chairwoman CHU. So the SBA identified in its 2018 agency 
plan for the White House Initiative on HBCUs to provide HBCUs 
with information on accessing and competing for Federal grants 
and contracts. In particular, the plan identifies the Small 
Business Innovation Research and Small Business Technology 
Transfer programs which SBA oversees as available resources 
that are underutilized by HBCUs.
    In your investigation, did the SBA perform any specified 
outreach or programs to promote SBIR and STTR, which have a 
proven record of stimulating technological innovation?
    Ms. ORTIZ. We narrowly focused our review on 
entrepreneurship programs, to encompass training and 
counseling, so we didn't look in particular at SBIR or STTR. 
However, we did observe that SBA participated in outreach 
activities at some HBCUs related to those programs.
    Chairwoman CHU. So this was part of SBA's 2018 annual plan. 
So were the SBA's regional offices familiar with SBA's 2018 
annual plan with regard to the HBCUs?
    Ms. ORTIZ. So far as we could tell, district offices that 
we spoke with, the eight district offices we spoke with, were 
not generally familiar with the agency plan or the metrics for 
measuring outcomes under the initiative.
    Chairwoman CHU. Okay.
    And, Mr. Gutierrez, what are the three single most 
important steps SBA can take to strengthen the engagements with 
HBCUs?
    Mr. GUTIERREZ. Thank you.
    I would say that, as mentioned in the oral, is that 
certainly the buck stops with me, right? So we are moving 
forward and ongoing forward in terms of three, I think, 
significant steps that will improve all that we have been 
talking about so far, which will be setting up an intra-agency 
working group that would hold accountable all the different 
offices, specifically Field Operations, given that they do a 
lot of boots-on-the-ground and activity in certain parts of the 
country. And I think that that is going to be a mechanism to 
really work with the different offices within SBA so we can 
capture that.
    The second part is data collection on a two-prong approach. 
One is we are going to be using the advances of technology that 
have been implemented at SBA and set up a SharePoint type of 
interagency, where the individuals will be able to upload their 
activity from the district offices or any offices if it is a 
SAM that has been created or activity with 8(a) or contracting 
or an event.
    And, thirdly, we mentioned the SBIR. We recently announced 
in a press release the SBIR tour this coming year. And we are 
actively looking, and we will hopefully in the next couple 
weeks be able to announce at least, minimum, two HBCUs that 
will participate on campus, that we will do an SBIR with them.
    Not only from that perspective, but also engage in all the 
different areas across the country where we are going to have 
the SBIRs, to outreach to the HBCUs so they can also promote 
and let them know the individuals, both from faculty, students, 
and alumni, to be able to participate as well.
    Chairwoman CHU. Well, thank you.
    My time has now expired, and the Ranking Member, Mr. Spano, 
is now recognized for 5 minutes.
    Mr. SPANO. Thank you, Madam Chair.
    I have a question for Ms. Ortiz.
    Thank you for being here this morning, and thank you for 
the work that you have done on this.
    GAO conducted extensive outreach, as you mentioned earlier, 
to SBA and HBCUs to complete the report. Which offices of the 
SBA provided documents and information for the report?
    Ms. ORTIZ. To clarify, are you asking about the central 
offices or the regional district offices?
    Mr. SPANO. Both.
    Ms. ORTIZ. Okay.
    We spoke with the Office of Entrepreneurial Development. We 
spoke with the Office of Strategic Alliance. We spoke with a 
representative from the Office of Faith-Based Initiatives.
    We also spoke with eight district offices, including the 
Washington, D.C., office; the North Florida office; the Georgia 
office; the Maryland office; the Puerto Rico district office; 
and several others.
    Mr. SPANO. Which of the regional offices were responsive to 
your request for information?
    Ms. ORTIZ. All of the district offices were very responsive 
in talking with us about what activities they had. However, 
only a few of those district offices really tracked their 
activities. For example, the West Virginia district office 
informally tracks its specific activities with HBCUs. And the 
North Florida office also does some informal tracking of its 
activities with HBCUs.
    Mr. SPANO. So those were the only two.
    Ms. ORTIZ. No. In fact, all eight had some sort of 
information with respect to their activities, but in terms of 
tracking, the actual documentation is not consistent across the 
eight. Technically, they are required to report cosponsored 
activities back to headquarters, but we are not confident that 
we have a full record of all of those cosponsored activities.
    Mr. SPANO. Is it your opinion that it is typically a good 
idea to track this type of information for the GAO to offer, 
really, you know, some kind of a credible opinion about whether 
the program is effective?
    Ms. ORTIZ. Well, certainly for GAO's sake it is good to 
track this information, but, moreover, for SBA to gauge whether 
it is meeting its own agency goals.
    Mr. SPANO. Right.
    Ms. ORTIZ. It outlines five specific goals under the agency 
plan, including number of outreach events, number of attendees, 
HBCU partnerships established, percent of HBCUs that seek 
Federal funding, and percent of HBCUs that find it useful. But 
it does not collect systematic information that would allow it 
to measure its progress on any of those goals.
    Mr. SPANO. To your understanding, what information is going 
to be included in your next report?
    Ms. ORTIZ. In our next report, we are going to be speaking 
more with district offices and also with specific HBCUs about 
their activities.
    We will also be talking with SBA some more about its 
reporting and tracking activities. There is evidently an 
activity contact report that district offices use to file 
information back up to headquarters, but we don't quite 
understand yet why it is that document isn't used consistently 
or can't be used to identify institutions with which SBA 
partners.
    Mr. SPANO. Thank you so much.
    Mr. Gutierrez, thank you for being here. And I hope you 
don't take this as kind of an accusatory approach with you. We 
just want to kind of get to the bottom of everything and make 
sure we are providing effective services to HBCUs.
    What is it, in your opinion, that is--number one, I am 
assuming that you would agree that it is important that SBA 
work effectively with HBCUs to fulfill its purpose.
    Mr. GUTIERREZ. Yes, sir. Definitely.
    Mr. SPANO. Yeah. So do you think it is practical to expect 
that you are able to obtain the information necessary for us 
all, you know, here on this dais, the House, and certainly the 
GAO to verify, in fact, we are doing what we need to be doing 
with respect to that cooperation?
    Mr. GUTIERREZ. Yeah, definitely. I think that, you know, as 
mentioned, you know, there is a lot of good work that we are 
doing out in the field. And certainly with this particular GAO 
and working with them and working with everybody in the agency, 
certainly this is going to help us as we move forward to 
improve, right?
    And the improvement in terms of, as I mentioned, is really 
I am taking full responsibility, making sure that we, by the 
end of the year, have--we are implementing the systems that we 
can adequately be able to report what activity collectively, 
both from the field, Office of Field Operations, and other 
offices within the agency.
    So, definitely, I think that it is important and certainly 
will be--it is an important initiative, and we will continue to 
work together.
    Mr. SPANO. Thank you. Just really briefly, we talk a lot 
about--in my small-business community, we say: What gets 
measured gets done.
    Mr. GUTIERREZ. Yes.
    Mr. SPANO. What gets measured gets done. And so it is 
important that we can measure the effectiveness of the SBA. So 
thank you for your cooperation in that regard.
    Mr. GUTIERREZ. Thank you.
    Chairwoman CHU. Thank you.
    The gentleman's time has expired.
    So now the gentleman, Mr. Evans from Pennsylvania, who is 
the Vice Chair of the Subcommittee, is recognized for 5 
minutes.
    Mr. EVANS. Thank you, Madam Chair.
    And I too want to thank Congresswoman Adams for her 
leadership on this. She has been relentless, so I compliment 
her first and foremost.
    Mr. Gutierrez, you heard Ms. Ortiz, and there seems to be 
an inconsistency in what you are saying and what she is saying. 
And you just stated that you have three points: interagency 
task force, data collection, and the SBIR press release. How 
are we going to have confidence, after listening to the GAO 
report and hearing you come before us and tell us this is what 
you plan to do for the future, how do we have confidence that 
that is going to become a reality?
    Because we understand the importance of the historically 
black colleges, as the Chairwoman said, to the equality system, 
the entrepreneurial equality system. But you have stated 
something, and it seems like you are saying one thing, but it 
doesn't seem to be connected.
    So I need you to be a little bit more direct than you have 
been, in my view. Congresswoman Adams knows far more about this 
than I do, but it seems like there is an inconsistency. So do 
you want to kind of respond to what Ms. Ortiz has said?
    Mr. GUTIERREZ. Definitely, yes. Thank you for the question, 
sir.
    I would say, you know, the confidence level is, you know, I 
am stating here publicly that it is under my watch now, it is 
my responsibility, and, moving forward, it is a priority. And 
we are going to make sure that at the next hearing, if there 
are any other ones, that I will be able to--from collectively 
making sure that the whole agency is on one page, right?
    And I think that there is a lot that we have noticed that 
has been done in the field, but in terms of what was mentioned 
previously by Ms. Ortiz is that, collectively, in gathering 
that information in the past, which I wasn't involved with, was 
not something of the best practices. Moving forward, certainly 
it is something that, in my overview and oversight, I can 
guarantee you it will be much better.
    Mr. EVANS. But the point of--I understand the usefulness of 
these strategic alliance memorandums. And this is to both of 
the panels. Can anyone give an experience with these 
memorandums? It seems to be ceremony and symbolism. It doesn't 
seem to actually do anything.
    I see there is the White House. They have signed this 
Executive order. And then it turns around when it comes down to 
your agency, who has the responsibility for implementation. 
That is not occurring.
    And, in the meantime, that means our constituents--in the 
case of Pennsylvania, we have Cheyney University, which was the 
first--I say to that my colleague from North Carolina--and then 
there is Lincoln University.
    Ms. ADAMS. We are the largest.
    Mr. EVANS. But the fact of the matter is, I just don't 
understand. So I need you--I mean, you know, both of you to 
talk about these strategic alliances. They seem like they are 
not worth the paper they are written on.
    Mr. GUTIERREZ. Yeah. If I may, certainly, you know, I would 
say that, just recently, you know, we--and I know the next 
panel, we are excited, the next panel that is coming on 
afterwards, because they all have either a strategic alliance 
or a partnership with SBA, recently with Shaw University and 
Benedict College, that we are moving forward. Those are new 
SAMs, strategic alliances, in terms of holding--you know, if 
you don't measure them, you know, what good is it on paper, 
right? And I agree with you.
    So, in terms of how we are moving forward with these 
strategic alliances, certainly, I know how we are going to be 
working together with the regional administrators at district 
offices and so forth and having joint 8(a) type of workshops or 
government contracting on how-to and so forth.
    So, moving forward, I can definitely say that, you know, it 
is not just a photo opportunity in that aspect. From the past, 
I couldn't, unfortunately, answer to you on those.
    Mr. EVANS. Let me get Ms. Ortiz in.
    Ms. ORTIZ. I think it is important to realize that these 
strategic alliance memos are a really blunt instrument, and 
they are, by the agency's own acknowledgment, largely symbolic.
    We heard from district offices that when they have a good 
relationship with an HBCU a strategic alliance memo is not 
necessary, so that it is possible that there are some district 
offices and some HBCUs that have had very positive experiences 
without having one of these memoranda in place.
    However, we have also heard from other colleges, such as 
Morehouse College, that after the SBA and Morehouse cosigned a 
strategic alliance memo, the university heard very little from 
SBA and felt like there was no follow-through on the SBA's 
part.
    Mr. EVANS. Thank you.
    I yield back the balance of my time.
    Chairwoman CHU. Thank you.
    The gentleman's time has expired.
    And now the gentleman from Tennessee, Mr. Burchett, is 
recognized for 5 minutes.
    Mr. BURCHETT. Thank you, Chairlady, members of the 
Committee, Ranking Member--did I leave anybody out? Are we 
good?--staff members, everybody. Thank you all for being here.
    I guess I come to this from a different perspective. My 
sweet mama--and for the record, Chairlady, I am an unrepentant 
mama's boy. My mama taught at Knoxville College, which was a 
wonderful school, and unfortunately it has kind of fallen on 
hard times, and we are trying to rebuild that now.
    I can remember, shortly before my mama went to heaven, that 
the president, the former president, and his wife came to my 
mama's bed, and she was already pretty much--she was there in 
body, but I think she was pretty much already gone to heaven. 
And they prayed over her, and they sang with her, and I 
remember Ms. Turner even brushed my mama's hair.
    So let one of our public universities try to do that. So I 
am kind of close to those folks. And when my mama died, they 
put her in their hall of fame, so that meant a lot to me and my 
family. And so I come at it from a little different angle.
    And I guess, Ms. Ortiz--did I say that right? ``Ortiz''?
    Now, two of the colleges that signed on to this alliance, 
strategic alliance, with SBA you mentioned are in Tennessee. 
And what can I do as a Congressman on this Committee to help 
foster that relationship between those schools and the SBA in 
order to grow entrepreneurship in my home State?
    I see a lot of it out there in the community, and I see 
young folks--you know, they just need something to kind of help 
them get a little boost up. And I am curious what you all have 
to say.
    And thank you all again for being here.
    Ms. ORTIZ. Surely. Thank you.
    Yes, there are two colleges, or two HBCUs, in your State 
that have signed cosponsored agreements, although only one of 
those is currently not--I am sorry--I said cosponsored. I meant 
signed strategic alliance memo.
    Mr. BURCHETT. Yes, ma'am.
    Ms. ORTIZ. But only one of those is currently active.
    I think, as a Congressperson, supporting HBCUs, checking in 
with district offices, asking what more could be done, finding 
out what the needs of students are, are all things that could 
contribute to advancing these partnerships.
    We heard from some stakeholders that they didn't feel that 
the mandate from Congress was strong enough in terms of 
outlining SBA-HBCU collaboration. We also heard from one 
professor that told us that building a business is the last 
thing on a student's mind if they graduate with a lot of 
college debt.
    Those were not issues that were a focus of our review, but 
they are things that Congress, in its broad oversight 
responsibility, could think about and implement policies to 
help with.
    Mr. BURCHETT. All right. Thank you.
    Mr. Gutierrez--did I say that right?
    Mr. GUTIERREZ. You got it.
    Mr. BURCHETT. Did I get it right?
    Mr. GUTIERREZ. Yes.
    Mr. BURCHETT. Say ``Burchett.''
    Mr. GUTIERREZ. Next time.
    Mr. BURCHETT. All right. Good answer.
    All right. Can you elaborate on what the SBA intends to do 
with regards to the Small Business Innovation--the program Road 
Tours? And will this be on campuses across the country or in 
communities?
    Because, like, Knoxville College, as I stated, it has 
pretty much gone away except for basically just somebody 
keeping up the buildings, and they are not able to even do 
that. But there is a huge community around there that still 
follows KC. I mean, the alumni association is still active. And 
when they have--actually, when they have reunions, there are 
more people on campus there than there are when the school was 
actually functioning. So----
    Mr. GUTIERREZ. Sure. I would say on the SBIR Road Tour, I 
know in previous--last year, there were some done on campus. 
But it is a combination, a two-prong approach. Some are done on 
incubators or host organizations, from that standpoint. But one 
of the things that I will be working with the team that 
oversees the SBIR program, STTR, is really the emphasis on 
having at least a minimum of two on campus.
    We are looking at--you know, coming up first is the central 
plains, southwest, and then eastern in Miami, Puerto Rico 
throughout this fiscal year. So we will be working on 
announcing those on that aspect, at minimum, to work with all 
the HBCUs to really make sure that they are aware of it so we 
can also engage them to participate, from that standpoint.
    I would like to also add that we recently announced seven 
new regional innovative clusters. And one of the clusters, 
which is AgLaunch, is a combination working together with 
Tennessee State University. So that is going to be a great 
opportunity, and it is working with an HBCU, from that 
standpoint.
    Mr. BURCHETT. I have 6 seconds, but if you all come to east 
Tennessee, could you have somebody give me a call? I would like 
to just be a part of it. I don't need to be recognized or 
anything, but that would be great.
    Mr. GUTIERREZ. Definitely, sir.
    Mr. BURCHETT. Thank you, Chairlady.
    Chairwoman CHU. Thank you.
    And now the gentlelady from North Carolina, Ms. Adams, is 
recognized for 5 minutes.
    Ms. ADAMS. Thank you, Madam Chair.
    And thank you to the witnesses for being here today, for 
both panels, actually. I do want to recognize all of the 
administrators from our HBCUs, in particular Dr. Dillard from 
North Carolina.
    Madam Chair, we have 10--11 HBCUs, actually. Let me just 
say, for a very long time, I have dedicated my life to HBCUs. 
It was an HBCU that took me in and moved me up the academic 
arena to get my college degree from North Carolina A&T State 
University, and I spent 40 years as a college professor at 
Bennett College, an HBCU in Greensboro.
    So I know firsthand what our HBCUs do and how important 
they are to students like me, first-generation students. So I 
am not going to go into all of the statistics that you heard 
our Chair--and I want to thank our Chair and also the Chair of 
the Committee, of the overall Committee, Chairwoman Velazquez, 
for holding this hearing.
    But I do want to say that we have, through the bipartisan 
HBCU Caucus, which I founded when I came here--and I am 
Chairing that with Congressman Bradley Byrne from Alabama. And, 
of course, we put this together to expand the dialogue 
nationally and to create a level of understanding here at the 
Congress about how valuable our HBCUs are.
    And we are looking at a challenge which we unveiled, an 
HBCU partnership challenge, in 2017 to strengthen the public-
private investments in HBCUs, because that is necessary. And we 
have 25 companies involved right now. I do want to just shout 
out Live Oak Bank and Intel.
    I won't go through all the impressive statistics, but what 
I want to do is to get right to my questions. But just to say, 
as we have heard, historically, HBCUs have been at a 
disadvantage when it comes to Federal resources.
    I have heard you talk about collaboration. I am hoping, if 
nothing else is remembered, that we can move from collaboration 
to contracts. Because, you know, words are words, and they mean 
things, but we have to do more than just talk the talk; we must 
walk it too.
    But let me just begin with my first question. To Mr. 
Gutierrez, you testified and you mentioned that the SBA has a 
long history of working with HBCUs, including signing the 
strategic alliances. But your colleague mentioned that they are 
largely symbolic.
    And I certainly appreciate the commitment that you are 
making here publicly, and we certainly want to follow you and 
hope that that will happen.
    I don't personally think there is a lot going on with the 
White House initiative, quite frankly. I am going to be real 
honest about that. I think that is symbolic too, and we have to 
move past that.
    But let me ask you, do you believe that HBCUs play an 
important role in our society?
    Mr. GUTIERREZ. Definitely, they do.
    Ms. ADAMS. All right.
    Mr. GUTIERREZ. All do. Definitely.
    Ms. ADAMS. Right.
    Now, you mentioned that you had some plans to initiate--or 
you didn't say--you said strategic partnerships. What are your 
plans to initiate contracts with HBCUs? Because I understand 
there are only two, really, right now. You have 24 
partnerships; you have 2 contracts.
    Mr. GUTIERREZ. Yeah, the two grantees, those are through 
the SBDC network, definitely.
    One thing that I--in my recent meeting last week, in 
looking at the multiplier effect and working with the other 
agencies as well, for example, Department of Energy, USDA, and 
so forth, in terms of, really, us being the conduit and helping 
on HBCUs with regards to the counseling and training, and then 
combining that with the opportunity of funding from the other 
agencies to really work as a win-win trifecta approach, from 
that standpoint. That is one way.
    Ms. ADAMS. Right. Okay.
    Ms. Ortiz, I want to thank you for actually getting busy 
and getting the study done. But small businesses are the 
backbone of our economy. How can SBA and the Federal Government 
better ensure that HBCU students are equipped with the tools 
and the resources to launch successful entrepreneurial 
endeavors?
    You have about 19 seconds.
    Ms. ORTIZ. Okay.
    SBA, right now, has a plan. It has mandates under the White 
House Initiative. It has its own stated goals under its agency 
plan.
    With a cohesive leadership strategy that focuses on this 
effort, increases communication with district offices about 
expectations, and sets some minimum record-keeping standards in 
order to make sure that we are really capturing the extent of 
SBA activities at the local level with HBCUs, SBA could 
definitely make progress toward that goal.
    Ms. ADAMS. Thank you very much.
    And thank you all for your testimony.
    Thank you, Madam Chair.
    And I want to invite you to come to North Carolina. We can 
have a roundtable. We can bring all of our HBCU presidents and 
administrators together. We think we can help you.
    Thank you very much.
    Chairwoman CHU. Thank you.
    And now the gentlelady from Pennsylvania, Ms. Houlahan, is 
recognized for 5 minutes.
    Ms. HOULAHAN. Thank you, Madam Chair.
    And thank you very much for coming and speaking with us 
today.
    I have so many questions, and I don't actually know where 
to start. I do agree with one of the prior folks who says it is 
very important to measure what matters, right? And if we are 
not measuring it, then we don't know where we are and the state 
of where we are.
    But I actually would like to know the inverse. Do we 
measure in non-historically black colleges the impact and reach 
of the SBA?
    Ms. ORTIZ. Yes.
    Ms. HOULAHAN. Thank you.
    Mr. GUTIERREZ. No, yes, we do. You know, Ms. Ortiz 
mentioned about the activity contact report that is done by all 
the district offices and all the activity that is done, what we 
do with all the different stakeholders in the communities and 
the partnerships and so forth as it relates to the different 
lanes, if it is counseling, if it is access to capital, if it 
is government contract, business development, if it is on the 
unfortunate side of disaster assistance and so forth. So we do 
track all that.
    And, certainly, from our standpoint, from the Office of 
Entrepreneurial Development, we do, through the CBJ, or CJ, 
congressional justification, on a yearly basis upload those 
numbers and report them here to Congress.
    Ms. HOULAHAN. So I represent the Sixth District in 
Pennsylvania. And, arguably, according to my research, Lincoln 
University is the Nation's oldest HBCU that is a degree-
awarding university. And I actually am fascinated by the fact 
that it would appear as though there hasn't been any outreach 
from the SBA. It looks like, from my research as well, that 
there are two offices that potentially could have contact with 
them--one that is about 40 miles away, one that is about 60 
miles away. Although that is a long distance, it is not an 
impenetrable distance.
    Is there anything that you can think of, aside from having 
not measured this before, that would have prohibited SBA from 
contacting Lincoln University or having some sort of a 
relationship with them?
    Mr. GUTIERREZ. What I would say is that, certainly, we will 
follow up with our district offices in surrounding areas. And 
as I mentioned, in terms of moving forward, certainly, it is 
not just those three areas that I mentioned about, but 
certainly an ongoing communication and outreach and really 
working with the head, my peer, in the Office of Field 
Operations, the AA, associate administrator, to really continue 
to stress and work with the district offices, the regional 
administrators, and so forth.
    I was just in Pennsylvania, I forgot to mention to both of 
you, last month, meeting with all the lenders as well as all 
the different stakeholders on how we can continue to make 
ongoing impact in the great State of Pennsylvania. So we will 
continue to do that.
    Ms. HOULAHAN. And do you have any idea, maybe off the top 
of your head, or could you get me the information, about 
colleges within the greater Philadelphia area that do have an 
existing relationship, just so that I can compare and contrast?
    Because we are, I think, second to Boston in terms of the 
number of universities that are within our immediate, you know, 
geographical area, and I would love to know just how many of 
them you already are working with.
    Mr. GUTIERREZ. Definitely. I will definitely get that from 
my staff and provide that to you.
    Ms. HOULAHAN. And what do you think, short of having to 
have a formal relationship or a strategic alliance, do you have 
to do to be able to have a relationship with Lincoln 
University? Does it take a formal agreement, or can there be 
something that is informal?
    Mr. GUTIERREZ. Yeah, that is a great question. That is what 
I was going to follow up on, on Ms. Ortiz's comment there. You 
know, maybe in the past, unfortunately, that was the case, but 
not necessarily how we are moving forward. It is not going to 
require a SAM to be able to have the district director offices 
to really engage and work with all.
    Certainly, you know, ongoing from this administration is 
how we can do much better in all different facets and also in 
rural America as well. So all these components come together, 
really, on holding the outcomes related that we want from all 
the district offices in that aspect to put the pedal to the 
metal.
    Ms. HOULAHAN. Thank you very much for that.
    And I guess my last comment is more of a comment rather 
than a question.
    Ms. Ortiz, you mentioned that people had given you feedback 
that it was hard to get traction when people were worried about 
their student debt and their student loans rather than worried 
about being an entrepreneur. I was fortunate. I had ROTC 
scholarships that allowed me to graduate without any debt, and 
I was able to be a successful entrepreneur as a consequence.
    But there is, actually, pending legislation that is about 
exactly that issue, which is supporting young entrepreneurs who 
have ideas in underserved communities and want to be 
entrepreneurial and do have student debt, to either have it 
forgiven or reduced in some ways.
    And so I would advocate for the Supporting America's Young 
Entrepreneurs Act, because I think that is something that would 
allow people to be able to reduce their debt and also be 
entrepreneurial at the same time.
    And thank you. I yield the rest of my time.
    Chairwoman CHU. Thank you very much.
    And thank you to our distinguished panel for taking the 
time to walk us through our many questions. I am sure we will 
stay in touch on this issue as we work towards greater 
collaboration between the HBCUs and the SBA. You are now 
excused.
    And we will now take a moment while we get our next panel 
set up.
    Okay. We would like to call our second panel up.
    And I would like to take a minute now to introduce each of 
you before turning it over for testimony.
    Our first witness is Dr. Paulette Dillard, the president of 
Shaw University. Dr. Dillard is the 18th president of Shaw 
University, and she previously served as the university's vice 
president for academic affairs and dean of the College of Arts 
and Sciences.
    Dr. Dillard graduated from Barber-Scotia College in 
Concord, North Carolina. She received her Master of Business 
Administration from Belmont University in Nashville, Tennessee, 
and a Master of Science in biology from Tennessee State 
University. She earned her Ph.D. in biological sciences from 
Atlanta University.
    Welcome, Dr. Dillard.
    Our second witness is Dr. Barron H. Harvey, the dean of the 
Business School at Howard University. Under the longstanding 
leadership of Dr. Harvey, Howard University Business School has 
been continuously ranked among the top business programs in the 
Nation.
    Dr. Harvey is an internationally renowned business 
management training specialist and has appeared in many 
television programs to discuss business issues and cultural 
diversity. He has also published numerous scholarly works and 
founded several organizations, including the HBCU Business 
Deans Roundtable.
    Dr. Harvey earned a Master of Business Administration in 
accounting and a Ph.D. in organizational behavior and 
management theory from the University of Nebraska.
    Welcome, Dr. Harvey.
    Our third witness is Dr. Michael Casson, the dean of the 
College of Business at Delaware State University. He is the 
founding executive director of the University Center for 
Economic Development and International Trade.
    He received his undergraduate degree from Florida A&M 
University, a master's in economics from the University of 
Wisconsin, and a Ph.D. in agricultural and resource economics 
from the University of Connecticut. He belongs to numerous 
professional organizations and has published a number of 
reports on topics, including African-American small business 
and workforce inclusion.
    Welcome, Dr. Casson.
    I would now like to yield to our Ranking Member, Mr. Spano, 
to introduce our final witness.
    Mr. SPANO. Thank you, Chairwoman Chu.
    It is my honor to introduce our final witness, Dr. Roslyn 
Clark Artis.
    Dr. Artis is the first female president for two education 
institutions, first at Florida Memorial University in Miami, 
Florida, and now at Benedict College in Columbia, South 
Carolina. Last year, she was named the female president of the 
year by HBCU Digest and was recognized as a woman of influence 
by the Columbia Regional Business Report.
    Dr. Artis is a graduate of Vanderbilt University, where she 
earned a doctorate in higher education leadership and policy. 
She also holds a Juris Doctorate from West Virginia University 
College of Law and a Bachelor of Arts degree in political 
science from an HBCU, West Virginia State University.
    Thank you so much for joining us today, Dr. Artis. We 
appreciate your expertise.
    I yield back.
    Chairwoman CHU. Thank you very much.
    And now, Dr. Dillard, you are recognized for 5 minutes.

    STATEMENTS OF PAULETTE DILLARD, PH.D., PRESIDENT, SHAW 
 UNIVERSITY, RALEIGH, NORTH CAROLINA; BARRON H. HARVEY, PH.D., 
DEAN OF THE SCHOOL OF BUSINESS, HOWARD UNIVERSITY, WASHINGTON, 
  D.C.; MICHAEL H. CASSON, JR., PH.D., DEAN OF THE SCHOOL OF 
   BUSINESS, DELAWARE STATE UNIVERSITY, DOVER, DELAWARE; AND 
ROSLYN CLARK ARTIS, PH.D., PRESIDENT AND CEO, BENEDICT COLLEGE, 
                    COLUMBIA, SOUTH CAROLINA

              STATEMENT OF PAULETTE DILLARD, PH.D.

    Dr. DILLARD. Thank you for the opportunity to testify 
today. My name, as you have heard, is Dr. Paulette Dillard. I 
serve as the 18th president of Shaw University.
    Shaw is a proud historically black college and university 
founded in 1865 and is the first HBCU in the South, located in 
Raleigh, North Carolina. With a mission to advance knowledge, 
facilitate student learning and achievement, to enhance the 
spiritual and ethical values of its students, and to transform 
a diverse community of learners into future global leaders, it 
is clear that Shaw is committed to student success.
    I was asked to testify before the Subcommittee about Shaw's 
experiences and relationship with the Small Business 
Administration.
    Shaw currently has a strategic alliance memorandum with the 
SBA. The initial SAM was signed on January 13, 2013. This 
contractual agreement with SBA, through the North Carolina 
district office, has a purpose of developing and fostering a 
working relationship to strengthen small businesses in the 
local area.
    As part of that partnership, Shaw opened what is called the 
Small Business Resource Center, and that center was opened in 
fall of 2013. The SBRC partnership with the SBA provides the 
following: office space that includes a reception and resource 
materials area; a conference room for meetings and for 
workshops; an employee dedicated to managing and facilitating 
the activities; and assistance to students and members of the 
Raleigh community with resources to start, finance, and operate 
a successful business.
    Not only does the SBA help to provide materials and 
services for the SBRC, but the Innovation and Entrepreneurship 
Center that is a partnership with Shaw also serves as a 
partner, and Shaw is able to host seminars and workshops on a 
variety of business subjects.
    The SBA office and the surrounding business community 
provide resources and presenters for these activities. In 
addition, the SBA provides small-business resource materials, 
including pamphlets, brochures, website resource references, 
and contacts with key business community leaders.
    Although Shaw has been able to benefit from the SAM, there 
is much more that we believe can be done. We believe that, in 
addition to workshops, it would be wonderful to be able to 
extend those workshops to include certifications that would 
allow students to be reasonably employed by small businesses in 
the community in which we reside.
    In addition, access to websites that are owned by the SBA, 
to be able to readily provide information targeted to the 
questions that small businesses have at the moment. In 
addition, it would be helpful if the SBRC at Shaw University 
had the benefit of a website social media link directly to the 
SBA.
    I would like to thank Chairwoman Velazquez, Representative 
Alma Adams, and the remaining members of Congress for 
requesting that the Government Accountability Office look into 
SBA's relationship with entrepreneurs and HBCUs.
    Chairwoman CHU. Thank you, Dr. Dillard.
    Dr. Harvey, you are now recognized for 5 minutes.

              STATEMENT OF BARRON H. HARVEY, PH.D.

    Dr. HARVEY. Good morning. I want to express my appreciation 
to the Honorable Judy Chu and the Honorable Ross Spano and 
distinguished members of the Subcommittee for this opportunity 
to testify in support of enhancing and expanding SBA's 
partnership with historically black colleges and universities.
    I would also like to thank the Honorable Alma Adams for her 
advocacy on behalf of HBCUs and who has created this wonderful 
opportunity for us to share information.
    HBCUs represent a wonderful opportunity for the U.S. Small 
Business Administration to have greater impact and expand its 
programs and allow for more innovative kinds of programs and 
activities.
    Howard University has had a great relationship with SBA and 
has hosted a lead SBD center for the last 4 years. However, in 
the time that I have, I would like to share recommendations 
that I think could be impactful going forward for SBA.
    First and foremost, I think the small business development 
centers, in concert with HBCUs, should develop more college 
credit entrepreneurship training programs that will have a 
focus on students, particularly those in the sciences, 
technology, engineering, health, and medicine.
    I would also like to challenge the SBA to require the small 
business development centers to track the number of students, 
particularly those of color, that they are able to attract to 
their program's workshops and activities.
    I would also like to recommend to SBA that they encourage 
small business development centers with HBCUs to develop a 
student externship program, where students in business, 
engineering, technology, and the sciences can provide much-
needed consulting services for African-American, women-owned, 
and minority-owned small businesses in their communities.
    My next recommendation is that it is important that a 
serious and enriching and developing partnership with SBA would 
also have funding for HBCU faculty and its graduate students to 
conduct, on an annual basis, research about the problems and 
opportunities and challenges that are confronting African-
American entrepreneurs and minority entrepreneurs and women in 
their specific community and geographic location.
    One of the major challenges also, which we have heard, 
confronting African-American and minority entrepreneurs, has to 
do with access to capital, no question about it. I would like 
to recommend to SBA that, in partnership with HBCUs, that they 
develop a SBA loan candidacy program which would be designed to 
prepare minority and women loan applicants for SBA-guaranteed 
loans.
    As you know, the information that is contained in the 
literature today, many of minority and African-American 
entrepreneurs won't even apply for an SBA-guaranteed loan, for 
fear of rejection. This kind of program would address that 
issue.
    I have heard that Mr. Gutierrez has spoken about the Road 
Show for the Technology Transfer program that is administered 
through the SBA and other government agencies. My 
recommendation is that they expand that program to have a 2-
year cycle to visit as many HBCUs it can, with a goal of at 
least 80 in a year.
    I would also like to suggest that the SBA convene a 
conference with SBA district directors, executive directors of 
small business development centers, and the National HBCU 
Business Deans Roundtable to engage in a dialogue about ways to 
expand and impact future strategies around helping HBCUs work 
with African-American and minority entrepreneurs.
    My overarching recommendation to SBA is to implement a 
unique and special partnership with HBCUs, including expanding 
the number of SBDC sub-centers at HBCUs from 16 to 50 over the 
next 36 months.
    Thank you for this opportunity to present this testimony on 
behalf of historically black colleges and universities.
    Chairwoman CHU. Thank you, Dr. Harvey.
    And now, Dr. Casson, you are recognized for 5 minutes.

           STATEMENT OF MICHAEL H. CASSON, JR., PH.D.

    Dr. CASSON. Good morning. I would like to thank the 
Subcommittee for the opportunity to share my testimony. I will 
start by just speaking about our current relationship with SBDC 
or SBA.
    Delaware State University currently has--or has been a lead 
SBDC from 2001 to 2013, has also served as a site location, and 
has received PRIME Grant award funding, which we used to 
actually start a mobile entrepreneurship training initiative.
    Now, this SBA support has provided specific clients with 
invaluable insight and resources for furthering their own 
enterprises. However, the impact of the SBA's funding and 
services could be exponentially more significant if the 
university and the SBA strategically work together to develop a 
targeted programming that effectively integrates the talent and 
resources of both entities.
    So, to this end, there are three areas of focus that the 
SBA can engage the university that will further both of our 
missions: first, infrastructure; second, alumni community 
partnerships; and, third, student engagement.
    So, regarding infrastructure, not unlike many universities 
across the country, research, teaching, and service represents 
the three pillars of higher education. However, there is one 
distinct difference when comparing HBCUs and predominantly 
white institutions: their ability to effectively monetize their 
research and service.
    HBCUs have traditionally and currently focused their 
revenue-generation efforts on the enterprise of teaching, 
pressing their respective admissions offices to increase 
enrollment to support growing financial gaps, with little 
attention being given to research and service. Contrarily, 
universities such as John Hopkins and the University of 
Washington garner up to $2 billion in Federal funding alone for 
their research and service activities.
    These institutions have effectively leveraged their full 
capacity of their brain trust by deploying the expertise of 
their faculty, staff, and students to solve many of the world's 
most challenging problems. The ability of these universities to 
effectively and efficiently deploy their resources for the 
public good is not by chance but, rather, by design. And it is 
this design that our university and many other HBCUs could 
utilize the expertise within the SBA to develop further.
    SBA opportunities such as SBIR and STTR, in addition to the 
billions of products and services needs of the Federal 
Government and private sector, requires a university's 
infrastructure that is designed to leverage its assets both 
immediately and efficiently. For example, the SBA can play a 
critical knowledge role in HBCUs' pursuit of the creation of 
centers of excellence designed to respond to global products 
and service needs through innovation.
    Regarding alumni community, the fastest growing population 
of entrepreneurs are African-Americans, specifically African-
American women. However, even with this high propensity to 
become their own boss, African-Americans' road to business 
stability and expansion is paved with limited resources to 
capital, professional network, and technical know-how.
    However, a viable partnership between HBCUs and the SBA, 
uniquely weaving and tailoring our various assets, could 
provide the necessary platform to engage the African-American 
small-business community as well as plug the resource gaps.
    For example, HBCUs are uniquely linked to African-American 
community organizations such as fraternities and sororities, 
ministerial alliances, urban leagues, agricultural 
associations, all of whom have economic development as part of 
their mission.
    Moreover, DSU, like many other HBCUs, have a large first-
generation population, representing many of the metropolitan 
areas of the Northeast and Mid-Atlantic. Thus, the SBA, in 
partnership with HBCUs, can create a network of services that 
extends into the communities that they represent.
    Finally, student engagement. Per a recent Young 
Entrepreneur Foundation survey, 90 percent of teachers and 
guidance counselors say their students are interested in 
becoming entrepreneurs. However, 75 percent of them say that 
their students have no idea where to go for guidance. 
Unfortunately, the cultivation of this phenomenon amongst 
incoming freshman and upperclassmen is often absent at our 
HBCUs due to lack of resources and/or capacity.
    However, a strategic partnership with the SBA could be 
vital in our efforts to design and provide this type of 
knowledge and skill base via curricular and co-curricular 
activities. For example, the establishment of multidisciplinary 
innovation labs, shared entrepreneurship ideation spaces, and 
skills trainings are all areas where the SBA resources and 
expertise could play a vital role in the development of our 
students' business acumen.
    Thank you.
    Chairwoman CHU. Thank you, Dr. Casson.
    And now, Dr. Artis, you are now recognized for 5 minutes.

          STATEMENT OF ROSLYN CLARK ARTIS, J.O. ED.D.

    Dr. ARTIS. Chairwoman Chu, Ranking Member Spano, members of 
the Subcommittee, thank you for the opportunity to testify here 
today.
    I serve as the 14th president of Benedict College. Founded 
in 1870 by Bathsheba A. Benedict, the institution is a private, 
coeducational liberal arts institution with 2,200 students 
enrolled in its 34 baccalaureate degree programs as of the 
2017-2018 academic year.
    Benedict has been highly regarded and exceptionally ranked 
for its programs by several academic and traditional 
publications, including the Washington Monthly magazine, as one 
of the top baccalaureate colleges in the Nation for creating 
social mobility and producing cutting-edge research and 
scholarship.
    I have been asked to testify before the Subcommittee about 
Benedict's experiences and relationship with the Small Business 
Administration.
    Benedict has a college-sponsored business development 
center located on its campus, and the center currently has a 
strategic alliance memorandum, or SAM, with the SBA. The 
initial SAM was signed by Benedict on October 30, 2013, and the 
most recent SAM was signed on April 9, 2019. This agreement 
with the SBA, facilitated by the South Carolina district 
office, is designed to help start, maintain, and expand small 
businesses.
    Through this agreement, since 2013, Benedict has been able 
to host three SBA Business Roundtable discussions in 2013, 
2014, and 2015 respectively; complete an agreement with the 
FDIC regional office to utilize the Money Smart financial 
literacy curriculum with Benedict College students and 
community residents in 2014; host a business management 
training course for local entrepreneurs NX Level Training in 
2016; and partner with the Benedict-Allen Community Development 
Center to provide technical assistance pertaining to marketing, 
accounting, and management to borrowers of the CDC's Benedict 
Minority Loan Fund from 2013 to 2016.
    Most recently, we have been able to restructure the 
technical assistance and incubator programs within the BDC, 
and, finally, to create a student innovation hub program within 
our BDC in 2018.
    Clearly, Benedict has been able to benefit from the SAM and 
the SBA. However, there are improvements that could be 
implemented to further enhance the relationship between the two 
entities: as part of the SAM, developing an action plan or 
timetable of program activities or events that can be 
implemented in partnership with Benedict and the SBA; 
designating specific resources, program funds, staffs, et 
cetera, that can be utilized by both parties for use in 
implementing the SAM; assisting the college through the use of 
new and existing SBA relationships; strengthening the SAM by 
committing financial resources from SBA to assist with business 
technical assistance through the college's BDC; and having SBA 
provide co-branding and marketing support with Benedict College 
and others to assist with marketing capacity and increase 
awareness in the surrounding communities of the services 
provided through the relationship with the SBA.
    I would like to thank Chairwoman Nydia Velazquez, 
Representative Alma Adams, and the remaining members of 
Congress for requesting that the Government Accountability 
Office look into SBA's entrepreneurship efforts with HBCUs.
    We have learned that SBA's goals, as identified in their 
2018 strategic plan submitted to the Secretary of Education and 
the Executive Director of the White House Initiative on HBCUs, 
were to: one, raise awareness and provide information that 
would help raise the capacity of HBCUs to participate in 
federally funded programs; and, two, promote collaboration 
among HBCUs and SBA resource partners in district offices.
    In an effort to accomplish goal number one, both the Small 
Business Innovation Research and Small Business Technology 
Transfer programs were mentioned. SBA indicates that these 
programs are underutilized by HBCUs. But what the report fails 
to disclose is that funding requested for these very same 
programs in the fiscal year 2020 budget request was 
significantly lower, at $3 million, compared to the $5.99 
million that was enacted in fiscal year 2019, a $2.99 million 
decrease.
    SBA's stated goals are a direct response to the Executive 
Order 13779, and the 116th Congress has taken measures to 
codify this Executive order. While the United States Senate has 
already passed 461, the HBCU Propelling Agency Relationships 
Towards a New Era of Results for Students--PARTNERS--Act, there 
remains concern in the HBCU community regarding this 
legislation and whether or not it goes far enough to truly 
increase transparency within the Federal Government. H.R. 1054, 
the HBCU PARTNERS Act, is similar to the Senate bill but 
includes stronger provisions that would be supported by the 
HBCU community.
    In conclusion, HBCUs are valuable institutions that not 
only contribute to society but provide an invaluable experience 
for our students, especially those who are low-wealth, first-
generation. I hope to see greater collaboration between the 
Small Businesses Administration and HBCUs and also hope to see 
meaningful legislation passed in the 116th Congress to truly 
strengthen the Executive Order 13779.
    Thank you.
    Chairwoman CHU. Thank you so much. We appreciate all that 
you shared with us.
    And now I will begin by recognizing myself for questioning 
for 5 minutes.
    And this question is for any number of people that wish to 
respond on the panel.
    HBCUs are fostering innovation for a disproportionate 
percentage of low-income and middle-income students across the 
country. They offer tremendous opportunities to drive economic 
growth, particularly in underserved communities.
    In your view, what is the most impactful thing the SBA can 
do to help minority entrepreneurs overcome challenges and 
develop a clear path to small-business ownership?
    Dr. HARVEY. From my perspective, I think very strongly that 
there should be a greater partnership around the programs that 
SBDC offers and the ability for our HBCU students to access 
those programs. It also would be helpful if, as I stated in my 
brief remarks, that these programs be credit-granting as well.
    I believe very strongly that there is a great opportunity 
for SBA and HBCUs to really educate the next generation of 
entrepreneurs by making sure that they are aware of not only 
the opportunities and challenges but also the programs that are 
offered by the SBA. When it is time for them to make that move, 
they will be very knowledgeable about how to navigate the SBA 
resources that will help them be successful.
    Chairwoman CHU. Anyone else?
    Dr. DILLARD. I would like to add that many of our HBCUs are 
located in underserved communities, and there are a number of 
small businesses in those communities that could benefit from 
having students help to get those businesses up and running.
    I think that in addition to credit, I think there is great 
value to having certification-type workshops that you don't 
just attend for a couple of hours a day but that you 
participate in a series of workshops that yields a credential 
that is useful for the small business that you would be 
participating in, and you would have an opportunity to expand 
the community as well as the student learning. And I think it 
is an incredible opportunity.
    Chairwoman CHU. Okay.
    Dr. CASSON. So I guess the first thing I would say is, if 
we believe that--or if we subscribe to the notion that 
necessity is the mother of invention, then not providing the 
resources to these communities just doesn't make sense. We have 
incredibly talented youth and adults in these communities that 
are looking for opportunities to become entrepreneurs.
    Having said that, I think the coordination of the dollars 
as well. So, working with the Economic Development 
Administration, for instance, and trying to create 
entrepreneurial ecosystems and thinking about how the Economic 
Development Administration can work or partner with the SBA 
and/or other community organizations, using the HBCU as the 
impetus for those type of engagements I think would be 
extremely impactful.
    Dr. ARTIS. Recognizing time limitations, awareness, 
accountability, and access.
    Awareness to the various opportunities provided by the SBA, 
including technical assistance and certainly micro-lending and 
other financial supports for young people who want to start 
businesses and simply don't know how to acquire resources 
necessary to do the same.
    Accountability by virtue of the tracking that has been 
discussed here extensively here today.
    And, finally, thinking through ways to improve capacity on 
the part of small businesses. We know that, as small businesses 
begin to grow, one of the biggest challenges for them, 
insurance, bonding capacity and the ability to compete for 
government contracts. So let's not limit ourselves to simply 
thinking about small mom-and-pop businesses but, rather, 
developing capacity among these businesses in low-resourced, 
underserved communities that can really develop capacity and 
strengthen our country.
    Chairwoman CHU. And, again, for anybody on the panel, in 
the limited time I have left: Are you familiar with SBA's 2018 
annual plan, which was developed in response to the White House 
initiative promoting excellence and innovation at historically 
black colleges and universities? Can you provide feedback on 
this plan and on what more can be done to foster an ongoing 
dialogue between SBA and HBCUs?
    Dr. DILLARD. I am familiar with the 2018 strategic plan, 
and I have some concerns about the gaps in the transparency of 
the organization in responding to some of the criteria within 
the plan. When you can answer a statement with a one-syllable 
``yes'' or none, then it causes concerns about how, valid is 
that plan and how intentional.
    So I would like to see some attention to requiring action 
items and plans and explanations for why particular aspects of 
the plan are not achieved.
    Chairwoman CHU. Okay.
    My time has expired, and so the Ranking Member, Mr. Spano, 
is now recognized for 5 minutes.
    Mr. SPANO. Thank you, Madam Chair.
    I just want to say initially, we have been involved in some 
mentorship programs in the small-business space back home in 
our district for several years. I just think they are 
incredibly exciting, incredibly effective.
    Dr. Harvey, you mentioned an externship program.
    Dr. Casson, you mentioned the possibility of an alumni 
mentorship program.
    I mean, imagine a scenario where have alumni community 
partners who are engaged in, you know, a program that provides 
mentorship and externship programs for students. I mean, I get 
chills thinking about it and talking about it. How incredibly 
exciting that would be. To me, boy, SBA could really play a 
vital role in something like that. So I am excited about that.
    I have a general question. And correct me if I am wrong. My 
understanding is that part of the impetus in placing these 
SBDCs in HBCUs, in addition to the other campuses across the 
country, part of it was to facilitate small-business growth, 
encouragement in the surrounding community itself, and part of 
it is to encourage the student body there in their small-
business efforts and desires and whatnot.
    So what is the proper balance? What has been the balance, 
looking back? And what is the proper balance between those two 
efforts moving forward?
    Dr. HARVEY. From my perspective at Howard University, 
having a lead center, the ideal balance would be kind of an 
equal perspective. That is, there will be faculty as well 
student and graduate students participating in many of the 
SBDC's programs, workshops, and activities, while still working 
with--SBDC working with the community itself and working with 
entrepreneurs surrounding Howard University.
    However, the balance is really focused more on the 
entrepreneurs in the surrounding community, because those are 
also the areas in which they are held accountable and have to 
measure. And for as long as I have been the prime investigator 
on my SBA grant, I have constantly advocated for more 
information being available to make sure that the SBDC knew 
that they had an obligation to work more with our students and 
our faculty.
    Dr. CASSON. If I could add, I think the question also 
hinges on the entrepreneurialship of the university itself. So 
I think if a university, or HBCU in this case, is 
entrepreneurial in is endeavors, so it is currently engaging in 
prospective opportunities such as SBIR or just across the 
board, then that community engagement will happen naturally, 
right? Because your university is already part of the 
entrepreneurial ecosystem and entrepreneurial community.
    So that goes to my original point when I was speaking about 
infrastructure and the importance of infrastructure for an HBCU 
to understand how to become entrepreneurial as an entity in and 
of itself.
    Dr. DILLARD. I think that it is very important that it be 
recognized as almost equally balanced. Because, by virtue of 
where we are located, the engagement with students, with 
faculty, with community, we have determined that it is an 
incredible partnership between all of those stakeholders. And 
we find that, by having entrepreneurial thinking with the 
students, they are engaged with the small businesses. And we 
are using Shaw as that central location, in our case, to bring 
all of these groups together. And it, once again, has amazing 
potential if it is appropriately resourced.
    Mr. SPANO. Uh-huh.
    Dr. Artis?
    Dr. ARTIS. You have obviously asked a great question. 
Everybody feels the need to chime in.
    I would agree that a 50/50 balance is perhaps most 
appropriate.
    Historically, Benedict has focused outwardly on the 
community, developing the surrounding areas and engaging young 
entrepreneurs in the neighborhoods in which we live, work, and 
play. Most of our HBCUs are not simply located in a community; 
they are of the community. They are a microcosm of the 
communities that they serve. And so it is critically important 
that we continue that outward focus.
    At Benedict, we have created a student innovation hub that 
I am very excited about and hope to bring to life through the 
SBA SAM, where our students are actually engaged by businesses 
around the campus to solve real-world problems. They are having 
the opportunity to apply what they are learning in the 
classroom to serve a small business who could not otherwise 
afford that consulting support.
    And so the students are learning and growing, the small 
businesses are developing, and it is a symbiotic relationship 
between the institution and the community. And that is the kind 
of thing we would like to grow and continue to perpetuate.
    Mr. SPANO. Wow. So exciting. Thank you.
    Madam Chair, I yield back.
    Chairwoman CHU. Okay. Thank you.
    The gentleman yields back.
    And now the gentleman from Pennsylvania, Mr. Evans, who is 
the Vice Chair of the Subcommittee, is recognized for 5 
minutes.
    Mr. EVANS. Thank you, Madam Chair.
    I would like to ask the panel--I want to kind of follow up 
on these SAM agreements in terms of effectiveness versus non-
effectiveness and would like for each one of you to talk about 
your experiences.
    Because you sort of heard Ms. Ortiz state the question 
about, this is really based on relationships. That is kind of 
what I heard. And then, also, my good colleague from the great 
State of North Carolina talked about those who just talk about 
it versus those who have contracts.
    So I need you, in a very specific way--you have your chance 
to tell us, has this been effective or has it not?
    Start wherever you want.
    Dr. DILLARD. I will begin.
    I have a SAM. I have had one--the original one was signed 
in 2013. We created the office, and we have great relationships 
with the SBA district office.
    What we do not have is a specific plan of engagement to how 
to actualize what is laid out in the agreement. And, we have 
found that the office is very cooperative, but it is not a plan 
where we have specific, outcomes and targets that we are 
working towards.
    But to address that, SBA has been a partner as we have 
created other partners. And so, together, we sort of are trying 
to work through this.
    But it would be of great benefit if the plans had, or the 
agreements had, actual commitments associated with them other 
than the ability to access the resources that are available 
through SBA with some kind of definitive commitment. Because we 
are, as has been stated earlier, under-resourced, and resources 
are, a major need to make these agreements actual and effective 
in our communities.
    Dr. HARVEY. Howard University has a great relationship with 
the SBA. That may, in fact, be having had a lead center since 
1999. But, also, it may, in fact, be reflective of the fact 
that we are also here in Washington, D.C., with the district 
office. So we have strong communications, great interactions.
    However, my perspective as the dean of the School of 
Business is that there is more that can be done and more 
innovation can move forward. But I want to state categorically 
that we do have a great relationship with the SBA.
    Dr. CASSON. So, at Delaware State University, again, we 
serve several different capacities as a lead SBDC and also 
currently as a site. I think, effectively, in my experience, 
the office has been more outreaching and not necessarily in-
reaching to the students. And I think there are a lot of 
opportunities there, again, to grow the student acumen and then 
leverage that for further developing the community efforts, 
which the SBA has pretty much focused on in our area.
    Dr. ARTIS. I think what you are seeing is a consistent 
theme: Individual institutions have meaningful relationships 
with district offices. And those typically are in, if you will 
look, Raleigh, D.C.--think about Delaware State's location. We 
are in a capital city. We have a district office in our city.
    And so you heard the Representative from Pennsylvania 
articulate the 40-mile distance, the 60-mile distance. Many of 
the institutions that serve low-wealth, first-generation 
students of color in this country are not located in urban 
areas, they are not located in capital cities.
    It is incumbent upon the SBA to outreach to those 
institutions, for they do not have the capacity to engage. We 
continue to see the language ``underutilized by HBCUs.'' That 
language is offensive to me. HBCUs simply do not have the 
staffing, the resources, and the capacity to go and ferret out 
these opportunities.
    If the SBA's commitment is firm to these institutions and 
to these communities, it is incumbent upon them to adopt a more 
active, engaged approach to reach into these HBCU communities 
and the neighborhoods in which they serve to ensure that the 
resources are made available and that the onus and the pressure 
is not placed on an under-resourced institution to go out and 
find them and scratch and claw and dig for those resources.
    Mr. EVANS. Real quick, Madam Chair, I just want to get in 
one comment, because I know my time is up.
    And maybe it is because I didn't ask my question clear 
enough. I want to make a distinction between relationship and 
effectiveness. So I will leave my comment with that. I heard 
about relationship, but I want to ask about effectiveness, 
meaning in terms of outcomes. I understand about relationships. 
You know, you can have a relationship, and that is fine. But 
what exactly does it mean for the constituencies that you are 
representing?
    So I would just yield back the balance of my time. Thank 
you, Madam Chair.
    Chairwoman CHU. Thank you.
    And now the gentlelady from North Carolina, Ms. Adams, is 
recognized for 5 minutes.
    Ms. ADAMS. Thank you very much, Madam Chair.
    And to both of my madam presidents and brother deans, thank 
you for taking the time to participate today.
    Our schools have incredible success stories to share. And 
with equitable resources and investment, our schools' and our 
students' limits would be endless. We have done a lot with a 
little for greater than a century. And some of our schools are, 
Madam Chair, 150 years old. But yet we have continued to 
produce and produce and produce.
    Now, Dr. Dillard and Dr. Artis, you both mentioned 
strategic alliance memos. And if I heard you right, first of 
all, when did SBA reach out to you to set up the most recent 
strategic alliance memos?
    Dr. ARTIS. As indicated in the record, our original was 
2013, and most recently April 9 of 2019.
    Ms. ADAMS. Dr. Dillard?
    Dr. DILLARD. January 13, 2013, was the first one. The most 
recent, April 9, 2019.
    Ms. ADAMS. So we are talking about a 6-year gap. It doesn't 
sound like much has happened in between that time, to me. Now, 
if I am wrong, somebody correct me. They haven't had a whole 
lot going on in those 6 years.
    Dr. ARTIS. We have had an average of one to two engagements 
per year in the span between 2013 and 2016 at Benedict College.
    Ms. ADAMS. Dr. Dillard?
    Dr. DILLARD. Similar at Shaw. We have had a number of 
workshops, we have partnered with other entities to do some 
things, but it has been pretty much similar to what Benedict 
has described.
    Ms. ADAMS. Right. Okay. So it sounds like--I was I 
listening to my colleague here--we need a little teeth in the 
plan. It is almost like sometimes we give mandates and no 
money. And so, in that sense, I think we do need to provide 
some support there.
    But, Dr. Dillard, in your capacity as president of Shaw, 
would you discuss a little bit the benefits of your unique 
entrepreneurial project, particularly to the students and the 
surrounding communities? I mean, you have touched on some of 
that.
    Dr. DILLARD. Shaw University partnered with an 
organization, the Carolina Small Business Development Fund, for 
the purpose of creating an innovation and entrepreneurship 
center. And the focus of that center has been on student 
development as entrepreneurs.
    So we have had great participation from the business 
community, from some of the SBA offices, like SCORE, in helping 
us to promote students in innovation and entrepreneurship. We 
have had pitch contests, as Dr. Artis has mentioned.
    But our IEC has been a very important link to the 
community, because not only have we had our students engaged, 
but we have been engaged with as many as 20 new business 
startups a year as part of a program to get more entrepreneurs 
into business in Raleigh, North Carolina.
    Ms. ADAMS. Okay.
    So let me--I have a couple things I want to ask. How do 
SAMs get created? And who initiates the engagements? If anybody 
can just respond to that, I have a little bit of time.
    Dr. ARTIS. I can't speak to the 2013 agreement, but I can 
speak to 2019. We received communication from the field office 
in Columbia, South Carolina, asking us if we were amenable to 
renewing the agreement and reconsidering the depth of the 
engagement between the SBA and Benedict College, to which we 
readily agreed.
    Ms. ADAMS. Okay.
    Dr. DILLARD. Same with the district office in North 
Carolina, in Raleigh. We received a call, and we were certainly 
interested in continuing the relationship.
    Ms. ADAMS. Great.
    Dr. Harvey, you talked about some really interesting 
things. And so you have a good relationship with SBA as a lead 
small business--do you want to comment further on that? You 
have 35 seconds.
    Dr. HARVEY. Thank you very much.
    I believe very strongly that we benefit from being in the 
Nation's capital. We benefit, also, being able to go down the 
street or have them come up the street to work with us.
    One of the things that I think is challenging, our 
relationship with other sub-centers, particularly other HBCUs, 
is the fact that there is a bit of economic discrimination in 
the policies that SBA has in the matching of funds. And that is 
something that SBA needs to consider, whether or not a school 
seeking to be a sub-center can apply for reduced or eliminated 
matching funds. I think that is extremely important.
    Ms. ADAMS. Thank you very much. And you will have the 
benefit of some of my dollars coming with my grandson to HU--
thank you--next year.
    Dr. HARVEY. Thank you.
    Chairwoman CHU. Well, we want to thank all the witnesses 
for taking time out of your schedules to be with us today. 
Thank you for sharing your tremendous expertise. You have shown 
us that HBCUs offer tremendous opportunities to foster 
entrepreneurship and to be a catalyst for long-term economic 
growth.
    Now, SBA programs are designed to provide small-business 
owners with the resources and tools that they need to succeed. 
And while we have heard that SBA has taken steps to improve 
their level of engagement with HBCUs and share resources, 
clearly, more work still needs to be done. So the Subcommittee 
plans to continue with its oversight of SBA to ensure that the 
agency moves in the right direction in this regard.
    I would ask unanimous consent that members have 5 
legislative days to submit statements and supporting materials 
for the record.
    Without objection, so ordered.
    And if there is no further business to come before the 
Subcommittee, we are adjourned.
    Thank you.
    [Whereupon, at 11:43 a.m., the Subcommittee was adjourned.]
                           
                           A P P E N D I X

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
